<html>
<title> - THE ISIS GENOCIDE DECLARATION: WHAT NEXT?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
               THE ISIS GENOCIDE DECLARATION: WHAT NEXT?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2016

                               __________

                           Serial No. 114-211

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                       

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-260PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                                  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Carl A. Anderson, Supreme Knight, Knights of Columbus........     6
Mr. Sarhang Hamasaeed, senior program officer, Middle East and 
  Africa Programs, U.S. Institute of Peace.......................    14
Mr. Johnny Oram, executive director, Chaldean Assyrian Business 
  Alliance.......................................................    27
Ms. Naomi Kikoler, deputy director, Simon-Skjodt Center for the 
  Prevention of Genocide, United States Holocaust Memorial Museum    34
Mr. David M. Crane, professor of practice, Syracuse University 
  College of Law (former chief prosecutor, United Nations Special 
  Court for Sierra Leone)........................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Carl A. Anderson: Prepared statement.........................     9
Mr. Sarhang Hamasaeed: Prepared statement........................    17
Mr. Johnny Oram: Prepared statement..............................    31
Ms. Naomi Kikoler: Prepared statement............................    38
Mr. David M. Crane: Prepared statement...........................    46

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
Ms. Naomi Kikoler: U.S. Holocaust Memorial Museum Report, ``Our 
  Generation is Gone,'' The Islamic State's Targeting of Iraqi 
  Minorities in Ninewa...........................................    70
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Ninevah Plains Paper by Mr. Gregory Kruczek....................    72
  Documenting Genocide White Paper...............................    76


                    THE ISIS GENOCIDE DECLARATION: 
                               WHAT NEXT?

                              ----------                              


                         THURSDAY, MAY 26, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon and welcome to everyone. In January 2014, ISIS 
terrorists captured the city of Fallujah in central Iraq a 
decade after it had been won at the cost of so much American, 
Iraqi, and British blood. ISIS moved north, taking more 
territory, and conducting its genocidal campaign again 
Christians, Yazidis, and other religious minorities. By early 
August, Yazidi men, women, and children were trapped on Mount 
Sinjar facing annihilation when the U.S. initiated airstrikes 
to save them.
    However, beyond that, it soon became clear that the 
administration had no comprehensive plan to prevent ISIS from 
continuing to commit genocide, mass atrocities, and war crimes 
or to roll ISIS back.
    This subcommittee, along with the Middle East and North 
Africa Subcommittee, co-chaired by my good friend and 
colleague, Ileana Ros-Lehtinen, convened a hearing on the 
genocide in December 2014 and called for the administration to 
act before those communities of Christians and others were 
annihilated.
    Meanwhile, across the porous border in Syria, the Assad 
regime was targeting and killing tens of thousands of 
civilians. I renewed my call again for a Syrian war crimes 
tribunal to be established to hold all sides in the conflict of 
Syria accountable, and we had heard from such great leaders, 
the former chief prosecutor who will testify today, David 
Crane, about the importance of taking action in a tribunal that 
had the flexibility and the capability to really hold people to 
account on all sides. The world knew that ISIS was committing 
genocide. Civil society groups, including some present at this 
hearing today, mobilized, writing letters and holding meetings 
with the administration, making statements and reporting 
stories.
    As a matter of fact, parenthetically, my first hearing that 
I held here in this room was more than 3 years ago on the 
genocide against Christians. Why was there such an indifference 
on the part of some within the administration?
    However, some members of the administration were pushing 
hard internally for the word ``genocide'' to be publicly spoken 
and for action to be swiftly taken. Yet the administration 
still had not acknowledged it and still had no strategy to 
prevent it from happening. Such was the situation in December 
2015 when this subcommittee convened yet another hearing. 
Shortly after, the Congress passed and the President signed 
into law the Fiscal Year 2016 appropriations bill, the omnibus 
bill, which required the Secretary of State to report to 
Congress with his evaluation on whether ISIS had perpetrated 
genocide.
    Perhaps the most important push outside the government and 
off the Hill was the 280-page report commissioned by the 
Knights of Columbus and developed in partnership with the 
tireless organization In Defense of Christians meticulously 
documenting the genocide against Christians. That report may 
have made the difference with the administration, so I am 
personally grateful to Carl Anderson, the Supreme Knight who is 
here to testify again, and for the Knights, along with the 
other groups, including A Demand For Action, that have done so 
much to ensure that genocide against Christians and others 
could not be ignored, trivialized, or denied.
    The House passed H. Con. Res. 75, authored by my good 
friend and colleague, Jeff Fortenberry, together with the 
Syrian War Crimes Tribunal Resolution that I had sponsored, H. 
Con. Res. 121, 3 days before the Secretary's evaluation was 
due. Finally, on March 17, Secretary Kerry declared that ISIS 
is ``responsible for genocide against groups in areas under its 
control, including Yazidis, Christians, and Shia Muslims.''
    Although the administration made the right determination, a 
long time coming but they did, the question arises now, now 
what? I already have concerns that historical mistakes are 
being repeated. Leading up to Secretary of State Colin Powell's 
historic genocide determination in September 2004--and I was 
very much a part of pushing for that to happen, along with 
others like Frank Wolf--the State Department's legal adviser 
had issued a memorandum that concluded that ``a determination 
that genocide has occurred in Darfur would have no immediate 
legal--as opposed to moral, political, or policy--consequences 
for the United States.''
    Secretary Kerry's legal advisers reportedly reached the 
same conclusion before he made his determination about ISIS. 
And so it again begs the question, now what?
    For years, the administration has been unwilling to 
effectively address the slaughters in Syria and Iraq. If it 
still thinks it has no obligation to act, it will likely 
continue its policy of acting too little too late. I am also 
concerned that the administration continues to conflate its 
strategy to combat ISIS with a strategy to protect religious 
minorities from genocide, war crimes, and mass atrocities. They 
are not the same. Combatting and defeating ISIS and Islamist 
extremism, of course, is essential. However, there are many 
other elements of an effective comprehensive civilian 
protection strategy, putting effective monitoring and response 
systems in place, and we have yet to hear them from the 
administration.
    Civilian protection has long been missing from the 
administration's response to the carnage in Syria. More than 
half its population, an estimated 13.5 million inside Syria, as 
of May 2016, plus another 4.8 million registered as refugees 
abroad, are in need of humanitarian assistance and protection. 
According to an April 2016 review of the casualty estimates of 
that conflict, the number of people who have died during 
Syria's civil war conflict since March 11, 2011, range from 
250,000 to 470,000. Notwithstanding the challenges of knowing 
exactly how many of those people were civilians and exactly how 
many were killed by the Assad regime and its proxies, we know 
this: The dictatorship has consistently, deliberately targeted 
civilians, hospitals, and schools with bombs and bullets and 
starved entire cities.
    While Russia, Iran, and Hezbollah have fueled the fires of 
death in Syria, the administration has mostly just watched 
Syria burn. Let me also point out that, in his testimony 
today--and it is worth really highlighting because others will 
make similar points--but Carl Anderson makes the point that 
``we are reliably informed that official government and U.N. 
aid does not reach the Christian genocide survivors in Iraq or 
in Syria.<greek-l>'' deg. <greek-l>`` deg.Repeatedly,'' he goes 
on to say, ``we hear from church leaders in the region that 
Christians and other genocide survivors are last in line for 
assistance from governments. Significantly, the Archdiocese of 
Erbil, where most Iraqi Christians now live, receives no money 
from any government whatsoever. If assistance from outside 
church-affiliated agencies ends in Erbil, Christians there will 
face a catastrophic humanitarian tragedy within 30 days. The 
situation is similar in Syria, according to Christian leaders 
there.''
    There is no easy single solution to the threats to 
religious and ethnic minorities and other civilians in Iraq and 
Syria. Obstacles clearly abound, including failures to 
implement the Iraq Constitution, especially the decentralized 
power and localized governance and security; longstanding 
unresolved disputes between Iraqi Arabs and Kurds over 
territory and natural resources; lack of accountability for 
genocide, mass atrocities, war crimes, torture, kidnappings, 
displacement, and more by a range of actors; the actions of an 
indigenously developed, internally supported national 
reconciliation process; conflicts over revenue sharing, 
corruption and radicalization.
    The list is long, complex, and it must never, however, be 
an excuse for indifference and inaction. However, unless key 
issues that preceded the genocide are addressed, the genocide 
may be perpetuated again, and it certainly is going on right 
now.
    Over the coming weeks, I plan to introduce a comprehensive 
piece of legislation aimed at contributing to the safety and 
security of religious and ethnic minorities and civilians more 
broadly in Iraq and Syria. It will also address the need for 
accountability for genocide, mass atrocities in those 
conflicts, and will also again call for a tribunal, like we saw 
in Sierra Leone, Rwanda, or the former Yugoslavia, and I do 
hope that the Senate at some point, hopefully soon, takes up 
our resolution that is pending before the Sentate Committee on 
Foreign Relations.
    I would like to yield to my good friend and colleague, the 
ranking member, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chairman.
    Good afternoon to the witnesses.
    I look forward to hearing your perspectives regarding these 
critical issues. As you know, on March 17, 2016, Secretary of 
State John Kerry declared that ISIS is responsible for genocide 
against groups in areas under its control, including the 
Yazidis, Christians, and Shia Muslims. The Secretary went on to 
chronicle numerous atrocities against various ethnic and 
religious groups by ISIL over the last few years. The question 
posed to the witnesses today is a logical result of the 
determination of genocide, specifically what actions need to be 
taken by the U.S., the international community, and, frankly, 
the region, to prevent further genocide.
    Secretary Kerry noted in his statement on March 17 that the 
best response to genocide is a reaffirmation of the fundamental 
right to survive of every grouped targeted for destruction.
    I look forward to hearing from the witnesses today on how 
that can best be achieved, bearing in mind the ongoing 
suffering of women, men, and children who live in constant 
fear.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you so much.
    We are joined by the famous chairman, Dana Rohrabacher, the 
gentleman from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. When we 
come to this issue and we look at this, it behooves us to open 
our hearts and try to come up with a formula that is going to 
help those people who are who are most in need and people whose 
lives are most in jeopardy. And, unfortunately--and I am just 
going to have to say, and I will try not to make this 
political--but our President has not come to the standard that 
I believe is adequate to deal with this horrible situation and 
the challenge that we face in the Middle East. It could be the 
guy's unable to say ``radical Islamic terrorism,'' even after 
our Ambassador was slaughtered and murdered in Benghazi, and he 
hasn't been able to say those words since.
    And we have been on him because of that, but that mindset 
will have implications, and it has implications in the issues 
that we are talking today. We have innocent people by the 
hundreds of thousands, if not by the millions, who are in 
jeopardy of being slaughtered in the same way the Jews were 
slaughtered during the Holocaust.
    And when I look at the figures of the people who are being 
permitted into this country right now under this 
administration, the Christians who are the basic target, the 
most vocalized target of these radical Muslims who are there 
who are involved with this terrorist activity, the Christians 
are underrepresented in the number of immigrants in terms of 
refugees and in terms of people who are actually immigrating 
from those countries in which they have been targeted for 
genocide. This is wrong. This is absolutely wrong. It is like 
sending the Jews back and saying: We are going to have a more 
open policy because of the Nazis, but the Jews aren't going to 
be able to come in.
    I would hope that we as Americans, both Republicans, 
Democrats, and this administration and this Congress, recognize 
we are in a moment now where we are defining ourselves, and we 
need to make sure that when Christians are under the threat of 
genocide, that they should have some priority over those other 
people in those countries that are not targets of genocide. And 
this isn't some sort of discrimination against Muslims or 
anybody else or Shiites or anybody else, but let's recognize 
that that is what is going on and that is what the threat is 
and deal with the threat and not try to have a debate that is 
sanitized over here in theory.
    So I am very pleased, and I am grateful to Congressman 
Smith, who, again, has demonstrated his total commitment to 
human rights of every person on this planet and how he commits 
himself to these issues.
    Chairman Smith, I would suggest that we again, and today we 
are reaffirming that we hear ISIL when they say that they are 
going to slaughter all the Christians. We hear them when they 
make proclamations of genocide against Christians and, yes, 
Yazidis as well and others as well, but specifically to the 
Christians and the Yazidis, and that we will then make sure 
that we mobilize, and we help mobilize the American people, 
which is what this hearing is all about, to save the Christians 
from genocide. It is up to us. I don't want future generations 
to look back on this generation of Americans and say: They 
closed their ears because they had clinical analysis to do 
whether or not you could single out one group that is being 
targeted for genocide for preferential treatment in terms of 
immigration and refugee status. I don't want to hear that, 
which resulted in hundreds of thousands or maybe millions of 
Christians dying in the Middle East.
    Let's get serious about this. I appreciate this opportunity 
to join you, Mr. Chairman, in this very moral effort to make 
sure our country is practical and is courageous enough to 
handle this challenge, this moral challenge of our day, to save 
the people who are being targeted for genocide. Thank you very 
much.
    Mr. Smith. Thank you, Chairman Rohrabacher, for your very 
powerful statement and for your leadership on human rights. I 
appreciate it. We all do.
    I would like to introduce our very distinguished panel 
beginning with Mr. Carl Anderson, who is Supreme Knight of the 
Knights of Columbus, where he is chief executive officer and 
chairman of the board of the world's largest Catholic family 
fraternal service organization, with over 1.9 million members. 
Mr. Anderson has had a distinguished career in public service 
and as an educator as well. From 1983 to 1987, he served in 
various positions in the Executive Office of the President of 
the United States, including Special Assistant to the 
President, and Acting Director of the White House Office of 
Public Liaison. Following his service in the House, he also 
served for nearly a decade as a member of the U.S. Commission 
on Civil Rights.
    I will then move on to Mr. Sarhang Hamasaeed, who is a 
senior program officer for the Middle East and North Africa 
Programs at the U.S. Institute of Peace. He joined USIP in 
February 2011. He works on program management, organizational 
development, monitoring, and evaluation. He also provides 
political and policy analysis on Iraq to the Institute of Peace 
and other peacekeeping actors. As Deputy Director General of 
the Council of Ministers of the Kurdistan Regional Government 
of Iraq, he managed strategic government modernization 
initiatives through information technology with the goal of 
helping to improve governance and service delivery. He has also 
worked with the Research Triangle Institute International, 
Kurdistan Save the Children, the Los Angeles Times, and other 
media organizations.
    We will then hear from Mr. Johnny Oram who is the executive 
director of the Chaldean Assyrian Business Alliance, dedicated 
to professional and social advancement of communities 
worldwide. He has been involved in the advocacy for the plight 
of the Iraqi and Syrian Christians who have been displaced due 
to the conflict. Additionally, Mr. Oram is involved in advocacy 
of the rights of the disabled, specifically those with autism 
spectrum disorder, or ASD. He has served in numerous capacities 
at the local, State, and Federal levels of government, worked 
for the Michigan legislature, Hawaii legislature, and in the 
U.S. Senate.
    We will then hear from Ms. Naomi Kikoler, who is the Deputy 
Director of the Simon-Skjodt Center for the Prevention of 
Genocide at the United States Holocaust Museum. For 6 years, 
she developed and implemented the Global Centre for the 
Responsibility to Protect work on populations at risk and 
efforts to advance R2P globally and led the Center's advocacy, 
including targeting the U.N. Security Council. She is also an 
adjunct professor at the New School University and author of 
numerous publications previously. She worked on national 
security and refugee policy for Amnesty International Canada 
and in the office of the prosecutor of the United Nations 
International Criminal Tribunal for Rwanda.
    We will then hear from Mr. David Crane, who was appointed a 
Professor of Practice at Syracuse University College of Law in 
December 2006. He was the founding chief prosecutor of the 
Special Court for Sierra Leone, an international war crimes 
tribunal that put many of the worst actors in that terrible, 
terrible tragedy behind bars. Ultimately, Charles Taylor got 50 
years of prison sentence at The Hague because of the great 
landmark work that Professor Crane did. Professor Crane's 
mandate was to prosecute those who bore the greatest 
responsibility committed during the civil war in Sierra Leone 
in the 1990s. He served for more than 30 years in the Federal 
Government. He has held numerous key managerial positions and 
has been dogged in his work to document the atrocities that are 
occurring in Syria and in the region.
    So thank you all for being here. What you convey to us and, 
by extension, to the Congress, hopefully to the administration, 
will help provide us with a roadmap going forward. So, Mr. 
Anderson, please proceed.

 STATEMENT OF MR. CARL A. ANDERSON, SUPREME KNIGHT, KNIGHTS OF 
                            COLUMBUS

    Mr. Anderson. Well, thank you very much, Mr. Chairman, for 
the opportunity to appear before the subcommittee today. The 
House of Representatives, the State Department, and the United 
States Commission on International Religious Freedom are all to 
be commended for declaring the situation confronting Christians 
and other religious minorities in the Middle East to be 
genocide. As we all know, the world's greatest humanitarian 
crisis since World War II is unfolding now in the Middle East. 
In addition to millions of refugees, many of the region's 
indigenous communities now face extinction. These communities 
may disappear in less than a decade, but their fate is not 
inevitable. The United States can avert this unfolding tragedy 
with a policy that contains, we believe, the following six 
principles: First, increase aid and ensure that it actually 
reaches those most in need. We are reliably informed, as the 
chairman has stated earlier, that official government and U.N. 
aid does not reach the Christian genocide survivors in Iraq and 
Syria. Repeatedly we hear from church leaders in the region 
that Christians and other genocide survivors are last in line 
for assistance from governments. Significantly the Archdiocese 
of Erbil, where most Iraqi Christians now live, receives no 
money from any government whatsoever. If assistance from 
outside church-affiliated agencies ends in Erbil, Christians 
there will face a catastrophic humanitarian tragedy within 30 
days. And the situation is similar in Syria, according to 
Christian leaders there.
    Those who face genocide are a tiny fraction of the 
population. They often must avoid official refugee camps 
because they are targeted for violence there by extremists. As 
a result, these minorities often do not get official aid, and 
this will continue to be the reality, unless specific action is 
taken to bring the aid to where these minorities are forced to 
reside by continuing violence.
    Knights of Columbus and other private sources have 
responded to this situation, but nongovernmental organizations 
can only do so much. It is essential, therefore, that 
government aid is increased and that we ensure it reaches those 
most in need, even if special emergency appropriations are 
required to do this.
    Second, support the long-term survival in the region of 
these ancient indigenous religious and ethnic communities. In 
Iraq, the Christian population has declined by more than 80 
percent, and in Syria, it has declined by almost 70 percent. 
American policy should recognize the important differences in 
the situations of those fleeing violence and those targeted for 
genocide, and quite frankly, we should prioritize the latter. 
Consider this analogy: After World War II, there were 
approximately 50 million refugees, but only a small fraction 
were Jews. Yet the world understood that Jews who had survived 
genocide faced a qualitatively different situation and deserved 
heightened consideration. The same is true today for the 
indigenous minorities of the region. They have an indisputable 
right to live in their country in whatever region of it they 
wish. Depending on the circumstances, this may mean that they 
will live where they are originally from or where they find 
themselves now, but as survivors of an ongoing genocide, they 
deserve to be prioritized in American policymaking decisions.
    Third, punish the perpetrators of genocide and crimes 
against humanity. The United States should support action by 
the U.N. Security Council to refer key perpetrators of genocide 
for prosecution. Equally important, we should support the Iraqi 
Government and the Kurdish Regional Government's adjudication 
of the cases of thousands of ISIS fighters and supporters who 
remain in local detention centers. This will assist in the 
important work of obtaining and preserving evidence of 
genocide.
    Fourth, we should assist victims of genocide in attaining 
refugee status. The news report as of last week indicated that 
of the 499 Syrian refugees admitted to the U.S. in May, not one 
was explicitly listed as being Christian or as coming from any 
of the groups targeted for genocide. We must ask, how long will 
this situation be allowed to continue? The U.S. should 
appropriate funding and work with the U.N. High Commissioner 
for Refugees to make provisions for locating and providing 
status to individuals, such as Yazidis and Christians, that 
have been targeted for genocide. As I mentioned earlier, many 
of these genocide survivors fear going into official U.N. 
refugee camps where they are targeted. Thus, they are 
overlooked and find it nearly impossible to acquire official 
refugee status or to immigrate.
    Congress should act now. Senator Tom Cotton has introduced 
the Religious Persecution Relief Act, S. 2708, to provide for 
overlooked minorities in the prioritization of refugees. We 
support this bill, and we urge its passage.
    Fifth, prepare now for the foreseeable human rights 
challenges as ISIS--controlled territory is liberated by 
ensuring that Christians and other minorities have equal rights 
to decide their future, and obviously, this is going to happen 
very soon as a result of what is happening in Fallujah and 
Mosul. We should prepare now for the consequences of the 
liberation of ISIS-controlled areas. We are likely to see 
another humanitarian crisis as thousands of civilians flee the 
fighting or return to their former communities when the 
fighting ceases.
    There has been much debate concerning plans for victims of 
genocide in Iraq. Some have argued for returning people safely 
to the Nineveh region; others that they should be allowed to 
stay in Kurdistan; still others that they should be allowed to 
immigrate. But these are not necessarily ultimately exclusive 
competing proposals. People should be allowed to decide their 
own future, and when they do, we should work to ensure that 
they are treated with fairness, dignity and equality. This also 
means that it will be increasingly important to ensure that the 
property rights and claims of minority groups are respected.
    And, finally, sixth, promote the establishment of 
internationally agreed-upon standards of human rights and 
religious freedom as conditions for our humanitarian and 
military assistance. The United States should advocate for full 
and equal rights for religious and ethnic minorities in the 
region in exchange for our military and humanitarian aid. A 
necessary first step to prevent genocide is to overcome the 
social and legal inequality that is its breeding ground. We 
should not accept one standard for human rights in the region 
and another standard for the rest of the world. The rich 
tapestry of religious pluralism in the region must be preserved 
now, or it will be lost forever. With its loss will come 
increasing instability and threats to our own national security 
and that of the world.
    We have a unique opportunity, and some would say a unique 
responsibility, to protect the victims of genocide. The United 
States can provide such protection with a policy that includes 
the principles outlined above.
    Mr. Chairman, we thank you very much for your leadership 
and that of the other members of the committee.
    [The prepared statement of Mr. Anderson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                    ----------                              

    Mr. Smith. Mr. Anderson, thank you so very much for your 
comments, the very tangible support you are providing to the 
at-risk minorities, especially Christians. And those six 
points, they are very, very, very well thought out.
    I would like to now recognize Mr. Hamasaeed, and thank you 
for being here and for your testimony.

  STATEMENT OF MR. SARHANG HAMASAEED, SENIOR PROGRAM OFFICER, 
    MIDDLE EAST AND AFRICA PROGRAMS, U.S. INSTITUTE OF PEACE

    Mr. Hamasaeed. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, thank you for the opportunity to 
testify before you today. I am testifying as a senior program 
officer of the U.S. Institute of Peace. The views expressed 
here are my own and do not represent that of the institute. 
USIP works extensively and closely with Iraqi minorities, 
specifically religious minorities. We support them by 
establishing an organization called the Alliance for Iraqi 
Minorities so that they have the capability to represent 
themselves, and so, in that vein, a lot of what I mention today 
is coming from experience directly engaging and trying to help 
those minorities.
    Definitely, the minorities in Iraq need all the support 
that they can get as well as other communities, nonminority 
communities, in Iraq.
    The dilemma of the religious minorities is not something 
new. I think it is important to look into some of the history 
so that we can inform solutions that will, to see if they will 
work and how do we prepare for those. The reality is that the 
minorities have, over the past few decades, been caught in 
between the conflicts and the problems of actors that they were 
not a part of. They didn't choose those conflicts, but they 
were affected by those conflicts. And ISIS is not a product, 
and what they have done is not a product of today. ISIS is a 
cause of atrocity, but it also is a symptom of failure of 
governance and the space it has created resulting from the 
political divisions among the big actors in Iraq and the 
region.
    So it is true that the minorities have suffered probably 
the most at the hands of ISIS in the sense that they came under 
attack, for displacement, for genocide, and also chemical 
attacks against the Turkomans in the Taza district of Kirkuk. 
The Yazidis have had their women and others taken as sex 
slaves. The Christians have been labeled, their houses labeled, 
and they came under specific attack.
    Then the question comes: What was the response? The 
specific question that was addressed to me to talk about was 
the response of the Government of Iraq and the Kurdistan 
Regional Government. And to look at this, you can look at this 
from the perspective of a glass half full or a glass half 
empty. The reality is that the minorities believe that the 
Government of Iraq and the Kurdistan Regional Government have 
not been able to protect them; that they have been displaced, 
and they have been affected. But it is also true that the 
Kurdistan Regional Government and the Government of Iraq have 
provided camps and shelters and provided food and assistance. 
They were also supported by the Iraqi community--which I think 
is important--and they have to recognize their efforts in 
absorbing this crisis and the problems here.
    But the reality is that the scope of the problem is well 
beyond the capacity of one single actor, one single government, 
or one single community. It requires a collective action. And 
there is a sense of fatigue for the years of displacement, 
especially since 2003. The limited capacity of the government 
and other actors needs to be taken into consideration into what 
assistance is provided.
    I think that there is a need for rethinking the assistance 
that is given to the minorities and their situation. On 
protection, the call for protection is not something new. This 
has been, as you mentioned, Mr. Chairman, there has been a call 
by the minorities to address this for a long time. And the kind 
of risk that the minorities are confronted with, they are 
existential threats that threaten their collective well-being. 
It is also a direct risk to their security as individuals and 
communities.
    So the risk of revenge, I would like to single out. We 
talked about the post-return. There is a scenario of protracted 
displacement, which will be a scenario that we have to deal 
with. In the 2006, 2007 peak of violence in Iraq, about 1 
million people never returned home. And the current 3.3 million 
people that are displaced, about 1 million of them minorities, 
they will likely not be able to return for quite some time 
because of problems that are on the ground, and the revenge is 
killing and the potential violence coming in those areas is a 
potential risk to them.
    The U.S. Institute of Peace has worked on models that help 
the return of IDPs and prevent violence. We have done this in 
the context of Salahuddin and the Speicher massacre that ISIS 
perpetrated against the Shia cadets and soldiers who were in 
that camp. We facilitated dialogue among the tribes, and we 
have been able to mitigate the violence and prevent killing and 
facilitate the return of IDPs. Tikrit right now has about 
150,000 people who have returned since May of last year.
    The same kind of effort will be needed in the context of 
the minorities because there are several layers of conflict 
that need to be addressed: Risks coming from existential 
threats like ISIL; then there are risks that will come from 
competition over scarce resources; and there will be risks 
coming from just tensions of some of the minorities considering 
what has happened to them by some of their Arab neighbors. 
There are minority-minority tensions that need to be addressed. 
There are Arab minority issues and Kurdish-Kurdish issues that 
need to be addressed. There is a need for conflict resolution 
to help them with the long-term viability.
    The minorities have the organizations and the capabilities 
to help themselves. They have been a partner and a voice for 
the minorities over the years. The Alliance of Iraqi Minorities 
has worked with the national government and with the Kurdistan 
Regional Government to pass legislation and make sure their 
issues have been prioritized. And they could continue to play 
that role. But at the end of the day, the scope of the need, 
the magnitude of the problem, will require more than what has 
been provided to date. I cannot emphasize enough the need for 
international support for early detection and action on those 
warning signs that the minorities have been giving us.
    It goes without saying that actually solving the bigger 
problems of Iraq will go a long way in helping the minorities 
over the long-term to stay safe and not to be attacked. While 
the minorities will be able to develop the capabilities to 
provide local security, larger existential threats coming from 
problems like ISIL, will require the help and the support of 
the Iraqi Government and the Kurdistan Regional Government and 
the larger communities around the minorities. So it is 
important to put emphasis on, how do you rebuild those 
relationships? How do we put mechanisms in place that will 
prevent those kinds of attacks?
    I think the capacity is limited and the peaceful 
coexistence is the emphasis that we need to put in as a 
mechanism. Civil society organizations have been a good vehicle 
to help the Government of Iraq and the international community. 
They will need help in both a scenario of return, but also a 
scenario of protracted displacement, to prevent host community 
tensions as well.
    So, with that, I will stop.
    And thank you, Mr. Chairman, and members of the 
subcommittee. I look forward to your questions.
    [The prepared statement of Mr. Hamasaeed follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Mr. Hamasaeed, I am going to say thank you very 
much for your testimony, which was very extensive. I have read 
it, and other members, I am sure, have read it.
    Without objection, your and all of the distinguished 
witnesses' full statements and any information you would like 
to attach to it will be made a part of the record. So thank you 
for that testimony.
    Mr. Oram.

  STATEMENT OF MR. JOHNNY ORAM, EXECUTIVE DIRECTOR, CHALDEAN 
                   ASSYRIAN BUSINESS ALLIANCE

    Mr. Oram. Thank you very much, Mr. Chairman, members, 
guests. My name is Johnny Oram. I am the executive director of 
the Chaldean Assyrian Business Alliance based in Detroit, 
Michigan. We are an organization that is aimed at fostering 
professional relationships and also to enhance the betterment 
of our societies globally, especially at a critical time when 
the existence of our peoples in our motherland as well as in 
Syria is being threatened.
    Before I go into recommendations for this committee, I 
would like to talk briefly about our peoples' presence here in 
the United States. We the Assyrians, Chaldeans, and the Syriacs 
are the descendants of the original peoples of Abraham. We are 
the indigenous peoples of Iraq. We are defined by our language, 
which is Aramaic, the language that the Lord Jesus Christ 
spoke. Oldest language in the world. We are also defined by our 
faith. We are a part of the Eastern Rite of the Roman Catholic 
Church in union with Rome. A good number of our Assyrians are 
from the Assyrian Church of the East, the Ancient Church of the 
East, and the Syriac Church, as well as the Presbyterian, and 
many other denominations.
    My people immigrated to the United States in the early 20th 
century to come to the greatest nation in the history on Earth, 
a land where they can seek opportunities and be free to profess 
their faith. They came to communities such as Detroit to seek 
employment in our automotive plants. They came to the United 
States not only because of economic opportunities, but they 
came to the United States because the church and we had 
communities here that they were attracted to. When you have a 
church, they will come. And, subsequently, there are schools, 
which I will elaborate here a little bit later, but that is 
very important to our communities: The faith and family.
    Oftentimes, the Assyrians and the Chaldeans are categorized 
as Arabs. However, we are not Arabs, but rather, we are in 
predominantly Arab countries, though many of our people live in 
Iran and Turkey, which are not Arab countries. Again, we are 
the indigenous peoples of the land. Nineveh was the capital of 
Assyria afterall. We have close to 150,000 Chaldeans and 
Assyrians in the metro Detroit region alone and an additional 
200,000 throughout the United States in Chicago, Phoenix, San 
Diego, San Jose, Turlock, and Modesto. We also have a 
significant Syriac community in New York and Connecticut.
    My people here in the United States have a deep connection 
and a relationship to our persecuted refugees in Iraq and 
Syria. And we have welcomed thousands of them who have come to 
the United States with open arms. We feel for them.
    I would like to touch point on the people who want to 
leave. So I am going to go ahead and kind of emphasize on that 
here. Seeing as Christians and other minorities are 
particularly targeted by the Islamic State, it is imperative 
that they be given special consideration in the search for 
asylum. This is amplified by the fact that they even face 
persecution in asylum and shelters in Europe by radicals. Nuri 
Kino, a world renowned investigative journalist and founder of 
the grassroots human rights organization A Demand for Action, 
has been instrumental in uncovering this in Sweden and other 
places throughout Europe. Our people are being harassed. Our 
people are being threatened. They are being intimidated. They 
are being coerced, even in Europe.
    The opening of the new processing centers in Erbil and 
Beirut, where the majority of Christians flee from Iraq and 
Syria, were positive steps. But the number of people processed 
must be increased to deal with the overwhelming. As far 
assimilating into the United States, I think this is a perfect 
time to have a conversation and to talk about schools like Keys 
Grace Academy in Madison Heights, Michigan. I alluded to 
schools. This is a first of its kind in the Nation where they 
have engaged in Assyrian language immersion and basically 
preserving our identity and our culture. And the school has 
also helped kids adjust and integrate into American culture 
while maintaining their heritage in a meaningful way.
    The public education system here in the United States is 
woefully unprepared to deal with these kids, many of them who 
have seen severe trauma. But schools, like Keys Grace Academy, 
which are run by our own Chaldean and Assyrian people, who 
understand what they have been through, are extremely critical. 
Furthermore, groups like the Chaldean Community Foundation in 
Sterling Heights, Michigan--basically it is a suburb of 
Detroit. This organization has been instrumental in helping 
Assyrian and Chaldean refugees to assimilate into American 
society. The foundation processes over 20,000 visitors annually 
as they help our new arrivals into the metro Detroit region 
seek employment, health care, assistance, education, moral 
support, and so on. Our community in metro Detroit is 150,000 
strong and growing. As you are all aware, Mr. Chairman, members 
and guests, my Congressman from Michigan's 11th congressional 
district, David Trott, offered an amendment to the NDAA, the 
National Defense Authorization Act, that passed the House on 
May 17, which is aimed at protecting Christians and other 
religious minorities throughout the Middle East from the 
Islamic State-led genocide by establishing a U.N. refugee 
processing center in Erbil. This requires the United Nations to 
step up and do its share to protect our vulnerable communities 
in Iraq, as well as the United Nations.
    I also urge the United States Congress to reform the 
Refugee Act of 1980 by establishing more P-2 and P-3 visas for 
our refugees and bypassing the U.N.-mandated refugee allotments 
and quotas. Moreover, this is also going to be important for 
the refugees in that they can apply directly to admission to 
the United States of America, rather than be sent off to other 
lands, such as various designations in Europe and elsewhere, 
where they have been unwelcome.
    Now, I would like to elaborate on the people who want to 
stay. The reality is that the vast majority of people will not 
be able or desire to leave. So the particularly important 
measure will be with those that deal with the situation in Iraq 
and Syria. In the short term, emergency aid going directly to 
these organizations on the ground is extremely critical. Aid 
organizations, like Help Iraq, the Assyrian Aid Society, ACERO, 
the Syriac Patriarchate, et cetera, have a proven ability to 
actually get aid to our people. Other organizations, such as my 
colleague Shachar Zahavi over at IsraAID, Israel's leading 
humanitarian organization, have been instrumental in providing 
aid, relief, and medical care for our refugees.
    The fact that our people are still being targeted in UNHCR 
camps by locals, not by U.N. staff, they almost exclusively 
stop going to these U.N.-run camps and, therefore, critical aid 
doesn't reach them through traditional channels. Our aid 
organizations, which I have alluded to earlier, fill in the 
void as much as possible. But resources are always in dire 
straits. We have seen some legislative support in the Senate's 
foreign operations appropriations. But, unfortunately, the 
legislative support has not translated to enough material 
support on the ground.
    I can't really emphasize how important this is, but we must 
directly support our indigenous aid organizations on the 
ground. For example, our own USAID sends funds to the United 
Nations with the intent of distributing these funds to our 
communities in Iraq and Syria. The Iraqi and Syrian Christians 
are not receiving any of these moneys. All this money goes to 
the UNHCR camps, a place which is unsafe for Christians and 
Yazidis and other religious minorities. Where is the security 
apparatus to protect our people in these camps, especially when 
they are trying to receive critical aid for their very own 
survival? Supporting local security forces in Iraq and Syria is 
the best way to ensure a stable environment where people are 
able to return. After the Islamic State invaded, both the 
Peshmerga and the Iraqi Army abandoned Christian and Yazidi 
areas of the Nineveh Plains and Sinjar, leaving the inhabitants 
defenseless and deeply distrustful of the institutional 
security apparatus.
    Support authorized through the NDAA for the Assyrian, 
Chaldean, Syriac Christians, and other minorities in Iraq and 
Syria is crucial in standing up to these forces.
    I worked with A Demand For Action on these efforts, and 
there has been some support realized for Syriac Assyrian forces 
in Syria, but the forces in Iraq are going to need considerable 
support. But it is support that they deserve and that they are 
entitled to and is the only way to gain confidence of the 
people who have inhabited these lands for thousands of years.
    Finally, the creation of a safe haven with international 
protection which ultimately would be transitional to a province 
in the Nineveh Plains with the semblance of self-governance and 
self-security is the only way to regain the trust of the 
minorities who feel that they were betrayed by the Iraqi 
Government and the KRG.
    These issues affecting our communities in Iraq and Syria 
are especially addressed in H. Res. 440, a resolution 
introduced by Congressman David Trott and Congressman Sherman 
of California, which calls for precise actions that can 
positively affect the situation on the ground. Marking up that 
resolution is critical as it would additionally serve as a 
moral boon to the beleaguered people as it is the first 
resolution in congressional history to recognize the Simele 
massacre in 1933, an event where 3,000 Assyrians were massacred 
under the watch of the Iraqi Government.
    I would like to talk on the IDP situation in Turkey. Sixty-
seven years ago, right here in Washington, DC, all the 
signatories to the North Atlantic Treaty Organization, NATO, 
agreed to the following: The parties to this treaty reaffirm 
their faith in the purposes and principles of the Charter of 
the United Nations and their desire to live in peace with all 
peoples and all governments. They are determined to safeguard 
the freedom, the common heritage, and the civilization of their 
peoples, founded on the principles of democracy, individual 
liberty, and the rule of law. They seek to promote stability 
and well-being in the North Atlantic area. They are resolved to 
unite their efforts for collective defense and for the 
preservation of peace and security.
    Mr. Chairman, Members, being a member of NATO requires 
respecting peoples of all religions and all faiths. Many of our 
churches in Turkey are being confiscated by President Erdogan 
and the Council of Ministers in Turkey under this whole guise 
that they are basically going to reform and revitalize those 
communities that have been impacted by war, especially in 
places like Diyarbakir. My very bishop, Francis Kalabat, in 
Detroit, Michigan, and many Assyrian and Chaldean clergy 
oftentimes have to travel to Turkey to administer to the 
faithful there because our faithful basically cannot profess 
their faith freely.
    This is a NATO ally. This is basically a campaign to begin 
the extermination of Christianity in the Middle East, and that 
really doesn't bode well for us. This is of extremely vital 
importance to our national security and to the security of the 
world. These include Catholics, Protestants, and Orthodox 
churches that date close to 2,000 years.
    Mr. Chairman, I would sincerely request that you and your 
colleagues move forward existing efforts in Congress to urge 
the Turkish Government, led by President Erdogan and his 
Council of Ministers, to immediately return these churches to 
their rightful owners. This right here is an example of 
continued persecution and displacement of Christians in the 
region. Again, Turkey is supposed to be our ally, but they are 
not being a good actor in the situation. These actions clearly 
undermine the very agreement that the Turkish Government signed 
to become a member of NATO in 1952.
    We, the United States of America, have a moral and 
fundamental obligation. We need to step up as leaders of the 
free world and help the thousands of Christians and other 
religious minorities escape displacement and death, give them 
hope when they have lost hope, and to reassure them that they 
have a place that they can come to if they so choose where they 
can be a part of a nation and contribute to our economy and our 
society.
    As I have mentioned earlier, we have the resources to 
absorb them. This is the right thing to do. Thank you very 
much, Mr. Chairman. May God bless you and God bless America.
    [The prepared statement of Mr. Oram follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                         ----------                              

    Mr. Smith. Thank you so much, Mr. Oram, for your testimony 
and recommendations and insights.
    I would like to now recognize Ms. Naomi Kikoler, and thank 
you for being here.

 STATEMENT OF MS. NAOMI KIKOLER, DEPUTY DIRECTOR, SIMON-SKJODT 
CENTER FOR THE PREVENTION OF GENOCIDE, UNITED STATES HOLOCAUST 
                        MEMORIAL MUSEUM

    Ms. Kikoler. Thank you, Chairman Smith and Ranking Member 
Bass, for holding a hearing on this important issue and for the 
opportunity to testify. I ask that you include in the record 
the text of the Holocaust Memorial Museum's report issued last 
November, entitled ``Our Generation is Gone: The Islamic 
State's Targeting of Iraqi Minorities in Ninewa.''
    Last month, I was sitting with a Yazidi woman in a 
displaced persons camp outside of Dohuk in the Kurdistan region 
of Iraq. She was kidnapped by Islamic State fighters in the 
village of Kocho during an attack where hundreds of Yazidi men 
were killed. When I met her, she, along with her two young 
children, had escaped her Islamic State captor in Syria only 2 
weeks earlier. She had been forcibly converted to Islam, and 
for almost 2 years, she was held as a sex slave. She and her 
children are the face of a modern day genocide that is being 
perpetrated by the Islamic State. For those still being held 
today, that genocide is ongoing.
    The administration's determination that this self-
proclaimed Islamic State committed genocide and crimes against 
humanity against religious minorities is an important 
recognition of the heinous crimes committed by the Islamic 
State and the suffering of victims like the woman I met and her 
children.
    However, if the label of genocide is truly to have meaning 
for the victims of that crime, then this discussion should 
evolve from a question of what happened to how to protect 
vulnerable communities, using military and nonmilitary tools, 
from future threats by the Islamic State and other extremist 
groups. This includes how to secure justice and accountability 
for the victims of their crimes.
    Genocide is a rare occurrence. There is no blueprint for 
how the United States Government responds in situations where 
genocide has been committed or is taking place. With this in 
mind, we at the Simon-Skjodt Center for the Prevention of 
Genocide traveled last month to the Kurdistan region of Iraq 
and to newly liberated areas by Mount Sinjar to assess what 
needs to be done to protect vulnerable minorities as a followup 
to the report released in November 2015 documenting the 
commission of genocide, crimes against humanity, and ethnic 
cleansing committed by the Islamic State against minorities.
    Our trip starkly revealed that these communities remain at 
risk of future atrocities. Those who stay in exile in the 
Kurdistan region of Iraq are physically safe, yet they yearn to 
return home. As long as the Islamic State exists, these 
communities will remain vulnerable. The Islamic State still 
occupies large swaths of land in Nineveh, making it impossible 
for minority communities to return home.
    Certain liberated areas are also too dangerous for 
civilians to return home as they are within the range of ISIS 
mortar fire. This is particularly true for communities on the 
south side of Mount Sinjar and those close to Mosul.
    Defeating the Islamic State, therefore, should remain a key 
priority of the U.S. Government's efforts if our hope is to 
ensure the very survival of these communities. Yet to animate 
this objective, civilian protection and the prevention of 
atrocity should be at the core of that strategy. We know from 
past cases that this requires a comprehensive and sustained 
strategy using military and nonmilitary tools that is 
calibrated to respond to evolving conditions on the ground to 
prevent genocide and other mass atrocities. In this context, a 
strategy would include day-after planning to identify scenarios 
and tools that would mitigate potential future flashpoints and 
implement strategies to address them, including rebuilding 
liberated areas, promoting reconciliation between groups, 
advancing justice and accountability efforts, and securing a 
political resolution between the Government of Iraq and the 
Kurdish Regional Government to the disputed areas in which many 
of Iraq's minorities live.
    The most common sentiment that we heard from displaced 
minority communities and one that needs to be addressed is 
their lack of trust in the officials and institutions that are 
responsible for their physical protection and for guaranteeing 
their legal rights, as well as their deep distrust of their 
former Sunni Arab neighbors who they perceive as having been 
complicit in ISIS' attacks.
    Religious minorities continue to feel that the Iraqi 
security forces and the Kurdish Peshmerga abandoned them when 
the Islamic State attacked Nineveh. Many also continue to feel 
that they are being used as political pawns by the Government 
of Iraq and the Kurdish Regional Government in the ongoing 
contest over the disputed areas. This leaves them nervous about 
who and how their land will be administered should they return 
home.
    For over 10 years, religious minorities were targeted on 
the basis of their identity by extremist groups and were 
politically marginalized. The early warning of their 
vulnerabilities went largely unheeded, and as a result, many 
saw fleeing the country as their only protection option. Today, 
in the absence of what they, again, see as being credible 
actors to provide their physical protection, many communities 
are seeking to arm themselves. New threats are also emerging 
for not just religious minorities but also for the Sunni Arab 
population who may be the victims of revenge killings. The 
proliferation of unregulated and poorly trained militias may 
pose additional threats to civilians in areas liberated from 
the Islamic State as they seek to liberate additional 
territory. Many that we interviewed expressed concerns about 
the potential for conflict between militias within particular 
religious communities and amongst religious groups.
    This all underscores that defeating the Islamic State and 
protecting vulnerable communities requires more than just a 
military strategy if civilians are to be protected. It requires 
tackling the root causes that allowed the Islamic State to rise 
and that enhance the vulnerabilities of minority communities.
    In light of this, we believe that there are four principle 
areas where additional efforts could be paid to ensure both the 
immediate protection needs of vulnerable communities seeking to 
return home and ensure that the long-term and systematic 
drivers of conflict are mitigated.
    Those are, first, an explicit policy to provide genuine 
physical protection to vulnerable populations. Protection could 
include strategies for employing local, domestic, and 
international actors to provide security to ethnic and 
religious minorities returning to liberated lands and Sunni 
Arab populations at risk of reprisal killings.
    In planning military operations and broader policy 
objectives, actors should consider the possible unintended 
consequences of the actions taken and whether they will 
heighten risks for civilian populations living under the 
Islamic State's control and/or might contribute to future 
cycles of violence.
    The Iraqi Government and international donors should ensure 
that all Iraqi security forces, Iraqi Kurdish Peshmerga, and 
local militias fully adhere to international human rights and 
humanitarian law standards and are held accountable for 
violations in accordance with international standards. 
Withholding military assistance to those groups who do not 
adhere to these standards could be a powerful tool in 
addressing the behavior of bad actors.
    Second is support for stabilization and reconstruction 
efforts in liberated areas. This includes increasing the 
presence of development assistance from relevant agencies and 
departments. Many of the displaced expressed concerns to us 
that they will be unable to return home in the absence of 
economic opportunity and the reconstruction of their devastated 
region. High rates of unemployment within the Sunni population 
and perceived economic inequity was one of drivers of the rise 
of the Islamic State. Affected regions must be rebuilt and the 
engagement of the international community must be sustained in 
that endeavor in the years to come.
    A critical component of stabilization and reconstruction 
efforts is investing in reconciliation so that diverse 
communities can once again live alongside each other. In the 
absence of such efforts, there is a grave potential for future 
conflict between communities.
    Third, transitional justice efforts are central to 
responding to the commission of past crimes and the deterrence 
of future crimes. The clearest obligation in the Convention on 
the Prevention and Punishment of the Crime of Genocide is to 
punish the perpetrators of genocide, and international justice 
is the cornerstone upon which the international community has 
responded to the crime of genocide, from Nuremberg 70 years ago 
to the international criminal tribunals for Rwanda, Yugoslavia, 
and Cambodia.
    Today, substantial support is needed to investigate, 
collect, and analyze evidence; secure mass grave sites; and 
detain perpetrators for the purpose of future prosecution. In 
this effort, we can't lose sight of the importance of holding 
individuals accountable for crimes committed at the local 
level.
    The most common answer to the question of how can trust be 
built between minorities and the Sunni Arab population that we 
pose to people who are displaced was that those who committed 
crimes in their towns and villages needed to be held 
accountable in a court. The rampant culture of impunity has 
left high levels of distrust amongst ordinary Iraqis. They need 
to see justice advanced not only against the Islamic State's 
leaders for genocide but also for the crimes committed by their 
neighbors in their very own communities. This necessitates 
detaining fighters, investigating their crimes, and then 
prosecuting them at the national as well as possibly the 
international level.
    Fourth is securing the political resolution to the ongoing 
dispute between the Kurdish Regional Government and the Iraqi 
Government over Nineveh. Our report was very clear in 
identifying the ongoing dispute as a key factor that 
exacerbated the vulnerability of minority communities in part 
because the dispute is perceived as having contributed to 
growing support for extremist groups, and when the Islamic 
State advanced, there were no clear lines of responsibility. As 
long as responsibility for protecting these communities remains 
in question, vulnerabilities will remain acute and create a 
vacuum that the Islamic State or a successor group could 
exploit.
    Finally, to recognize a genocide has happened is to 
acknowledge a collective failure to prevent the crime of all 
crimes and to uphold the commitment to never again. Going 
forward, the U.S. and other governments will need to place 
civilian protection and the prevention of atrocities at the 
core of their counter-ISIL strategies, but the commitment to 
prevent and protect minorities must extend beyond the current 
threat posed by the Islamic State. We must endeavor to ensure 
that in 10 years, we are not yet again meeting in the wake of 
another failure to protect vulnerable minorities in Iraq and 
Syria.
    Countering the Islamic State and preventing future 
atrocities perpetrated by other groups necessitates an ongoing 
assessment of those groups' motivations, organization, and 
capabilities for committing atrocity crimes, and of the 
vulnerabilities of at-risk communities. Continuous monitoring 
and analysis of the warning signs and risk indicators on the 
ground will be needed and strategies developed to ensure that 
threats facing minorities in the future are mitigated.
    That is what upholding the commitment to prevent, enshrined 
in the Genocide Convention, should mean. Thank you.
    [The prepared statement of Ms. Kikoler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                        ----------                              

    Mr. Smith. Thank you so very much for your testimony and 
for reminding us of what the face of genocide is with your 
experience with the young woman and her two children. As you 
pointed out, she was forcibly converted to Islam. For almost 2 
years, she was held as a sex slave. That is just numbing in how 
awful and horrific that reality has been, so thankfully you 
were there, and now you have conveyed that message to all of 
us. And that should be fresh impetus for all of us to do even 
more.
    I would like to now yield to Mr. Crane, a former chief 
prosecutor of the Special Court for Sierra Leone.

    STATEMENT OF MR. DAVID M. CRANE, PROFESSOR OF PRACTICE, 
 SYRACUSE UNIVERSITY COLLEGE OF LAW (FORMER CHIEF PROSECUTOR, 
         UNITED NATIONS SPECIAL COURT FOR SIERRA LEONE)

    Mr. Crane. Thank you, Mr. Chairman.
    I want to thank the subcommittee, its staff and, in 
particular, its chairman for its decades-long fight against the 
atrocities committed by state and nonstate actors around the 
world. In fact, you and I have been working together since 
2002, along with many members of this committee, in seeking 
justice for the oppressed.
    We are in an age of extremes with adversaries never 
contemplated facing challenges that are most likely not 
solvable. The 21st century is shaping up to be no better than 
what I call the bloody 20th century, where over 225 million 
people died of nonnatural causes, over 100 million of which 
that I estimate at the hands of their own governments.
    In the 21st century, conflict will be kaleidoscopic and 
dirty, with one or all sides ignoring international law. Our 
current planning in the United States and preparation cycle 
make us incapable of dealing with these kaleidoscopic conflicts 
and events, and I am working with the International Peace and 
Security Institute to quantify that data.
    Despite this, we have seen the evolution of modern 
international criminal law, which has now given us the 
practical and legal capability of holding dictators, thugs, and 
their henchmen accountable for atrocity if there is a political 
will to do so. I underscore ``if there is a political will to 
do so.'' If we do have that political will, we have the 
experience now to prosecute those who feed on their own 
peoples.
    Now, we have mentioned many numbers this afternoon related 
to casualties: 300,000 persons killed, over 10 million refugees 
moving about the region with no hope and no homes. But I do 
want to underscore that these are about human beings, 
individual human beings. When I was in Sierra Leone, I would 
hold townhall meetings, and I was in Makeni, the headquarters 
of the infamous Revolutionary United Front, who cut hands off 
of victims and other body parts. And as I was holding this 
townhall meeting, a young child soldier stood up. He was about 
12, and he looked at me in the eye, and he began to weep, and 
he said: I killed people. I am sorry. I didn't mean it.
    And as I was holding him in my arms as he wept, a young 
woman stood up 10 feet from me, most of her face was missing 
because it had been put in a pot of boiling water. She was 
holding her child, and she, through cracked lips, said: Seek 
justice.
    That is why we do this. And that is why I want to 
underscore in my remarks today that we don't forget that it is 
individual human beings, one person at a time.
    There has been a complete breakdown of the rule of law and 
accountability in the Levant. The laws of armed conflict are 
ignored, resulting in mounting civilian casualties. There is an 
increased use of banned weapons systems, such as barrel bombs 
and chemical weapons, along with the increase in various 
torture and execution methods not seen since the Dark Ages. The 
Caesar Report, which I coauthored and which we testified a year 
or so ago, found direct and clear and convincing evidence of 
this horror.
    In the Levant region, there are three international crimes 
that are being committed. They have been highlighted in this 
testimony and are well-known by this subcommittee: War crimes, 
crimes against humanity, and possibly genocide. I want to 
underscore and caution that we have to be very careful that 
politicians and diplomats tend to rank or tier international 
crimes and holding out genocide as the top tier.
    Well, I would just submit respectfully to this subcommittee 
that 300,000 people killed as a result of an international 
crime don't care whether it is a genocide, crime against 
humanity, or war crime. So I want to caution our use of terms. 
They are important, but they are crimes, and I also want to 
point out, of these three crimes, one is a specific intent 
crime, which means that you have to have a specific intent to 
destroy in whole or in part a peoples.
    It is a difficult crime to prove, and in some cases, you 
almost need a smoking gun, so I would just caution this 
subcommittee, when they are considering the war crimes, watch 
out for tiering and ranking the crimes, as well as 
understanding that genocide, even though a very serious crime 
indeed, a crime of crimes, is a difficult and very specific 
type of crime, which at the legal level, has to be clearly or 
beyond a reasonable doubt proven each and every element.
    So what is next then? You asked me that question. First, 
there must be a realization that the ISIS phenomenon is a 
decades-long challenge. We are entering into an effort that is 
of cold war ramifications.
    At this time, we do not have a solution for this challenge. 
Until we do have a realistic and practical solution, we must 
understand that we may not be able to restore international 
peace and security, only manage some sense of security in the 
Levant. The conflict there truly is kaleidoscopic in nature, 
where if one thing changes, everything changes. We cannot 
predict or plan what happens next.
    The cornerstone to a possible beginning of a solution is 
Arab resolve and cooperation. However, this may not be possible 
given political realities. The West cannot be seen as an 
interloper, only as a patient enabler and a facilitator. We 
can't be seen as launching the seventh crusade, so to speak.
    Over the next several years, you must contain the ISIS 
threat regionally, stamp out ISIS' attempts to further their 
cause elsewhere and focus on achievable programs in the region 
locally and domestically, and I would underscore some of the 
important points made by my colleagues this afternoon.
    I just would like to say a young man or woman who has a job 
and some hope for a better future is less likely to turn to 
terror and to ISIS. Essentially, what I am saying is that we 
cannot defeat ISIS using kinetic energy alone. In reality, it 
can only be done through economic revitalization, almost a 
Marshall Plan for the Middle East. It is that kind of 
commitment.
    Additionally, we can take realistic steps to start an 
accountability mechanism for the region, particularly as it 
relates to ISIS atrocities. If we have the political will, we 
can establish some tried and true methods. We should start with 
a truth commission, not a reconciliation commission at this 
point, but start with a truth commission. Let's get something 
started. Let's get something going.
    We also have the ability and the experience to set up a 
domestic court or an internationalized domestic court, even a 
hybrid regional court, which we did in the Special Court for 
Sierra Leone. The International Criminal Court, though an 
important and permanent entity, is politically, unfortunately, 
neutralized by the United Nations Security Council and, 
unfortunately, will not play a major part in this effort, even 
though we need to recognize that they do have a potential 
place. The practical reality is, a domestic court, an 
internationalized domestic court, or hybrid regional court 
supported by regional countries, countries in the region, is 
the most practical and realistic opportunity.
    Now, these mechanisms can be headquartered in Iraq, Turkey, 
or Jordan, supported by members of the Arab League. The 
international community could assist and train commission or 
court personnel as requested and needed. The idea is having 
Arab states prosecuting Arabs for crimes against Arab peoples 
in violation of Arab laws.
    Now, we have done this before with the Special Court for 
Sierra Leone. We have moved into an area, worked with peoples, 
developed methodologies, efficiently managed justice mechanisms 
and broad accountability to millions of victims there in West 
Africa. We have translated this success into the Syrian 
Accountability Project, where we have built a conflict map, a 
crime base matrix, sample indictments so that someday, when a 
domestic, regional, or international prosecutor is designated, 
we can hand this package over to them for their consideration 
to get things started.
    So what are my conclusions? The Levant is an unmanageable 
space. International peace and security cannot be restored 
using today's outmoded problem-solving techniques. Thus, there 
are no foreseeable political or military solutions. This is a 
multifaceted, and I underscore, decades-long struggle. It is 
truly kaleidoscopic.
    Our next step should be to continue to try and contain 
ISIS. On the periphery, create achievable regional and domestic 
programs, and I would humbly suggest perhaps that Marshall 
Plan.
    Let's take away the reason for ISIS to be--no hope in the 
future. We have and can offer better alternatives, such as 
freedom and a jobs plan, possibly. It is within the realm of 
possibility to development a justice mechanism outside the U.N. 
Security Council. The focus should be using regional and 
domestic arrangements to create those mechanisms. We must not 
be discouraged. We must be patient and firm in our resolve for 
accountability, stability, and peace.
    A little over 10 years ago, President Charles Taylor never 
thought that he would be held accountable for his crimes in 
West Africa, but today, he sits in a maximum security prison in 
Great Britain for the rest of his life paying the price for 
aiding and abetting the murder, rape, maiming, and mutilation 
of over 1.2 million human beings. We can hold ISIS accountable 
for their crimes and begin to establish some sense of peace in 
the Levant.
    Thank you, Mr. Chairman, for this time. I stand ready to 
answer any questions.
    [The prepared statement of Mr. Crane follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Smith. Thank you, Professor Crane, for your testimony, 
for your leadership. And one of the pictures that I will never 
forget is the picture that was all on the front pages or page 3 
of most of the newspapers around the world of Charles Taylor 
receiving a 50-year prison sentence, eyes cast down, thinking, 
I am sure, that he would never be held to account for the 
atrocities he committed on the Liberian, Sierra Leonean, and 
other people of the region.
    So thank you for that successful prosecution of the other 
men who committed such horrific acts of violence against 
innocent people, especially women and children, for that and 
for your recommendations. They are outstanding.
    Just a few questions to start off. I will yield to my 
colleague, and then we will have perhaps a few more additional 
questions.
    Mr. Anderson, you make a very strong point--Mr. Oram, you 
do it as well--that the aid that is meant to go to--or what 
many people think would get to Christians is not getting 
through and to other persecuted minorities, like the Yazidis, 
and the importance of backing indigenous efforts, particularly 
the churches, to get that aid through.
    We had a hearing last--I chaired it with the Assistant 
Secretary Anne Richard under the auspices of the Helsinki 
Commission on why is it so many people went to flight and left 
and made their way into Europe? One is that there was gross 
underfunding of the international calls for subsistence.
    Mr. Hamasaeed, you made the point as well that efforts 
continue to fall woefully short of the need for food, shelter, 
healthcare, education, and psychosocial support for those to 
deal with trauma in your testimony, and the number that we got 
was about 40 percent of the requests of the competent 
authorities, like the UNHCR, that is all they got. And this 
year, so far, we are at, for 2016, 23 percent funded, although 
we are not done, 2016. Forty percent, 42 percent, is, as you 
said, woefully, woefully underfunding.
    One of biggest takeaways from that hearing came from the 
UNHCR representative, who said the reason why people left, one 
was the loss of hope; secondly, a cut to the World Food 
Programme of about 30 percent. And they said: That is it. They 
don't have our back. We are going to stagnate here, maybe even 
die. We are going to head to Europe or Germany or somewhere 
else where the pastures might be greener.
    So the international community fatally, I think, 
underfunded those efforts. The U.S. led the effort. Perhaps we 
should have done more or mobilized more. This isn't a hearing 
to point fingers. It is to say: We have got to get it right. 
And my hope is that we will do a second hearing. Just so you 
know, Ms. Bass and I, we have already asked Rabbi Saperstein to 
come, the top point person for religious freedom. He couldn't 
come today, but he sends his regrets. He will make an 
appearance. We will also ask Anne Richard, Assistant Secretary 
at PRM, and others, because I do think there is a place where 
we need to be joined at the hip, congressional and executive 
branch, to make a difference in the lives of these people.
    But the gross underfunding, and if you would elaborate a 
little bit on this 30-day window. Mr. Anderson, you talked 
about that if people don't get food and medicines--and any of 
you who would like to touch on this--they are literally at the 
point of starvation and, obviously, other terrible consequences 
from malnutrition.
    Mr. Anderson. Well, I would say, Mr. Chairman, most of what 
we hear is anecdotal. Just this week, my assistant is in Erbil. 
I was speaking with him this morning, and he was calling me 
from a Yazidi camp. He told me that what he had been told was 
that the Yazidis in this camp had received one food drop from 
the U.N. when they arrived, and since that time, all of their 
assistance has come through the Archdiocese of Erbil. For 
example, all of their medical assistance comes through the 
medical clinic that we have been funding.
    So if those sources stop, you can see here is a community, 
they are still living in tents. There is nothing available for 
them. So I would think maybe have the same kind of evidence 
that you are receiving, but we hear this from the religious 
leaders in Erbil, and we hear it from the religious leaders in 
Aleppo and throughout Syria. It is the same, same issue.
    Mr. Smith. Yes, Mr. Oram, and then Mr. Hamasaeed.
    Mr. Oram. Mr. Anderson, thank you. Yes, that is a common 
narrative in Erbil for our people. So, as I had mentioned in 
testimony, Mr. Chairman, organizations like Help Iraq, Assyrian 
Aid Society, ACERO, and others are basically doing the job of 
what governments and governmental agencies should be doing. And 
a lot of our people, a lot of this assistance goes to the U.N. 
and U.N.-run camps. But a lot of our Christians and other 
religious minorities are afraid to go to those camps because 
the--so one recommendation is to, really, in addition to the 
refugee processing center--we don't know--I know that there has 
been legislation to call for that and also to form some other--
a venue for them to go and receive aid, so there needs to be a 
security apparatus in place, especially even at the U.N. camps, 
because most--a bulk of that aid goes to those camps.
    Mr. Smith. And you know, when I raise it with the UNHCR, as 
I did at that hearing and I have done ever since and before, 
they are very defensive, and I understand where they are coming 
from. It is not them. It is the people in the camp.
    Mr. Oram. Right.
    Mr. Smith. Those who wish them ill, ``they'' being the 
Christians or the Yazidis or the other minorities.
    Mr. Oram. That is correct. You are absolutely right.
    Mr. Smith. But that doesn't mean I don't have a 
responsibility and all of us to get the money, the food, and 
humanitarian assistance to those who are suffering.
    Mr. Oram. And that is why it is so extremely critical in, 
you know, the Senate's foreign operations appropriations 
mechanism to increase aid for these international 
nongovernmental organizations because they are preparing. So 
what oftentimes has happened is organizations like Help Iraq 
are vested with a responsibility of engaging in fundraising 
campaigns throughout the world.
    In Detroit, we have raised hundreds of thousands of dollars 
from our community, and all that money, and clothing, drives 
for clothing and food and blankets, especially in the 
wintertime. That is also a critical time.
    But our communities in northern Iraq, the Assyrians and the 
Chaldeans, they are basically prisoners in their own country. 
The other important issue is, and, Mr. Anderson, the Assyrians, 
the Chaldeans can't be gainfully employed in Kurdistan. Now, we 
have a problem with that.
    Mr. Smith. Yeah.
    Mr. Oram. You can't seek employment. Kurdistan, so far as I 
understand, is still a part of Iraq. Our people are basically 
depending on the diaspora communities for their survival. I 
have had conversations with folks from the United Nations, and 
they basically said when it came to the issue pertaining to the 
security of Nineveh and the communities in Syria and what have 
you, Qamishli and what have you, they basically said that they 
don't have the resources or they are not in a position to 
provide U.N. peacekeeping forces to protect those communities 
that are being threatened.
    So, really, the United Nations really needs to step up to 
the plate.
    Mr. Smith. Yeah.
    Mr. Oram. And be a leader and providing a security 
apparatus. And, also, when--I would like to jump into the 
refugee issue. Yes, we have, as far as refugee admission to the 
United States, the Christians have really been--about we are 1 
percent--less than 1 percent of admissions into this country. I 
am not here to have a debate about religion and about Islam and 
Christianity, but it seems 99 percent of the refugees that have 
been admitted into the United States are Muslim.
    And when the United States basically was debating as to 
whether or not to declare this a genocide, their whole concern 
was, well, the Christians, they have options. They can pay 
jizya, a fee to basically stay alive. It took 1\1/2\ years for 
Secretary Kerry to make this declaration, and basically, all 
experts throughout the world came to the understanding and 
conclusion that this was actually a genocide, and I do commend 
the Secretary for finally making that declaration.
    So, yeah, we need to really step up to the plate and 
provide financial assistance to these organizations and so the 
money can get to the communities.
    Mr. Smith. Yes.
    Mr. Hamasaeed. Yeah, if I may just stress that the point I 
made in the written testimony as well, which the need today, 
whatever is seen by the international community, is far greater 
than what the system captures because the system does not see 
the amount, the volume of assistance that came from the local 
communities, from the Iraqis, whether in the Kurdistan region 
or the rest of the country. They have helped a lot in 
shouldering this and, actually, were the first responders in a 
way to the wave of crisis.
    But I think, in addition to seeing the current need, we 
have to also look forward toward what would be the magnitude of 
the problem in a scenario of a protracted displacement a year 
from now, 2 years from now. A good number of those people will 
stay with us, and the kind of tensions that we see today in the 
housed communities, in the IDP camps, and a good number of 
people are outside the IDP camps, sometimes not registered in 
this system because of lack of documentations or the 
bureaucracy does not have the capacity to handle this 
magnitude.
    Neither the Kurdistan Regional Government nor the Iraqi 
Government have handled something like this from a bureaucracy 
assistance standpoint. They don't have the capacity. Then there 
is the issue of resources. The communities have exhausted their 
resources that they have because of the economic downturn in 
Iraq. The drop in oil prices has strained the system. The 
country is fighting ISIL, so there are the military expenses. 
You have the destruction that comes from this fight. Ramadi: 80 
percent destruction, other towns, the pictures are horrible. 
Sinjar, other minority places; the potential for return is a 
significant problem.
    So the tensions will be something that we need to focus on. 
And it is important as we do this, there are issues that are 
directed at minorities from ISIL and other groups, but some of 
this is just a natural product of the chaos and the conflict 
where people do not have income and resources. They don't have 
jobs. There is a pressure on the governments of the region, in 
Iraq or elsewhere, to provide economic opportunities and give 
job permits. But the economy being down and people not having 
jobs is not just--you can go outside the camps, but there are 
no jobs.
    There are many, many IDPs who have been interviewed, and 
they say: The economy outside is such that there is nobody to 
hire us because the economy is down. Oil prices are down. And 
the Kurdistan Regional Government and its tensions with 
Baghdad, they are late 3 months in the payment of their public 
servants. Their resources to help with the IDPs are far more 
limited.
    So, therefore, the international community really takes 
this seriously from a humanitarian standpoint but also from a 
conflict prevention standpoint because the more displaced, the 
more--they either have to migrate, or there will be--they are 
vulnerable for other forms of radicalization as a response to 
the problem that they face.
    Mr. Smith. Ms. Kikoler.
    Ms. Kikoler. Thank you for raising that question, and maybe 
just to pick up on some of the things that Sarhang mentioned.
    I think it is really important to underscore that the 
implications of the underfunding means that this crucial 
conversation about the day after--and in reality, we are 
talking about today. For areas that are already liberated 
around Sinjar, this is a question that people are grappling 
with today. Do people return? Can they return? Who is taking 
the leadership in pushing that conversation?
    That discussion of the day after should be a central 
component of our counter-ISIL strategy conversations right now. 
All of us have highlighted a couple of components that usually 
fall outside, as Sarhang mentioned, of the traditional 
discussion of conflict prevention or counterterrorism. That is 
reconciliation, reconstruction, addressing political 
grievances, and the importance of accountability. Each of those 
require resources dedicated toward them, yet they are simply 
not a priority right now for many of the actors that we hope to 
take a leadership role in these particular issues.
    Mr. Smith. If you could just elaborate, not a priority for 
whom? The U.S. Government? The governments in the region?
    Ms. Kikoler. I think it would be fair to say the 
international community, as a whole, has not been focused on 
this day after conversation, and I think there is an important 
role that Congress and others can play in raising that 
particular issue.
    When we went to areas that had been newly liberated, to 
highlight what Sarhang mentioned, you see town after town and 
village after village that has been simply devastated: Homes 
that have been bombed; every gas station has been destroyed; 
water is down; electricity is beginning to be back in order. 
People are waiting to return home because they are waiting to 
see the schools in the Kurdish Regional Government close, 
waiting to see schools open now in newly liberated areas. Those 
are the types of urgent needs that need to be addressed and 
need to be part of that counter-ISIL strategy.
    I think just to underscore a point that was made before 
too, those are not traditional kind of kinetic issues that need 
to be prioritized from an atrocity-prevention perspective, and 
it means that they are being viewed as second-order priorities 
whereas, really, they should be first-order priorities if we 
are hoping to prevent a recurrence of these crimes, and we need 
to do that with the recognition, as Sarhang said, that the 
capacity of the Government of Iraq and the capacity of the 
Kurdish Regional Government to address these issues is really 
quite diminished, and there are also concerns about the 
political will to address some of these particular concerns.
    Mr. Crane. Thank you, Mr. Chairman.
    As I am sitting here thinking of time and how long this 
conflict has gone on, I recall back in March 2011, I was asked 
by the Syrian National Congress at the time to meet with me and 
The Hague to talk about justice mechanisms that we could 
implement in the spring of 2011. It was a time of hope and 
excitement. It was the Free Syrian Army versus the Assad 
regime. It was not that completely simple, but that was pretty 
much it.
    They were enthusiastic. They were listening, and I had been 
working with that group, along with the International Criminal 
Court, United Nations, and other countries in dealing with the 
transitional justice process. But dealing with my Syrian 
colleagues, I have noticed a sadness in their eyes, and they 
realize that this isn't going to go well, and I agree with 
them.
    I particularly noticed, after the summer of 2013, when a 
certain line was drawn in the sand, saying: If you do this, 
then the international community will step in. It happened and 
nothing happened. And as we had been collating and putting in 
the crime base matrix events that have taken place that 
possibly could be war crimes, crimes against humanity, what 
have you, there was a pause in that summer of 2013 when the 
threat was made that if you do this, then we are going to step 
in. We actually saw, anecdotally, a decrease in atrocities. As 
soon as that line was drawn and was stepped over, then all hell 
broke loose, and we saw an increase in atrocities, which have 
gone off the chart since that time. Our crime base matrix at 
the Syrian Accountability Project is now over 7,000 pages of 
incidents that have taken place that could amount to 
international crimes.
    So I just want to underscore, when we are talking about the 
urgency of time, we have now moved into an era where there is 
no practical solution to the Levant.
    Mr. Smith. I have some additional questions, which I will 
hold for a few moments, but I would like to yield to my friend 
and colleague, Ms. Bass, the ranking member.
    Ms. Bass. Well, thank you, Mr. Chair. I appreciate you 
giving me the opportunity.
    First of all, I would really like to thank all of the 
witnesses for not just your testimony but the work that you do. 
It has really been sobering.
    I wanted to ask a couple of questions of you, Mr. Oram, 
about the Assyrian population in the U.S. You mentioned the 
Michigan area, and I was wondering, are there other places 
around the U.S. where there is a population?
    And the other thing you mentioned was the population in 
Europe is experiencing some problems. It sounded like it was 
internal to the community, but I wonder if those same types of 
problems are being manifested in the United States.
    Mr. Oram. Thank you. Thank you very much, Ms. Bass.
    We have, in the metro Detroit region, close to 200,000 
Assyrians. We have been in the United States for decades. In 
addition to Detroit, there is a significant population of about 
70,000 Assyrians in Chicago alone. And then we have communities 
in San Diego, Phoenix, and the Central Valley of California, 
the Modesto-Turlock area.
    Ms. Bass. Uh-huh.
    Mr. Oram. So, yeah, we have a considerable population of 
our communities.
    I will go to your Europe question on Europe, but as far as 
the problems here, no. When the the refugees immigrate to the 
United States, like specifically in Detroit, in particular, we 
have a community in Detroit that is so strong and well rooted, 
groundly rooted in the community, people in the community know 
who the Chaldeans and the Assyrians are. But, you will have 
your occasional individual or individuals that will basically 
categorize the Assyrians and the Chaldeans as being Arabs and 
Muslims and we are terrorists and what have you, but see, a lot 
of it is also about education. We go around to communities, and 
we educate policymakers all throughout the country and business 
leaders about who we are, what our identity is and our faith, 
and so that is extremely important.
    But no. Our communities don't face violence here in the 
United States.
    Ms. Bass. Uh-huh.
    Mr. Oram. This is the land of the free. This is the 
greatest country in the history of Earth.
    And as far as Europe is concerned, yes, what is happening 
is a lot of the refugees are being grouped up, and it is not 
the governments that are really conducting this. It is 
basically the populace in some of these countries. Europe's 
borders are very porous.
    Ms. Bass. Right.
    Mr. Oram. And so what is happening is, you know, we have 
our refugees that are in Sweden and all throughout Europe as 
Nuri Kino, the investigative journalist and the founder of a 
Demand For Action, has spent 30 years documenting the issues of 
refugees and migration and what have you, and so there are 
communities in Europe where they face violence because of their 
faith.
    Ms. Bass. Okay. Thank you. I appreciate that.
    Mr. Oram. Sure.
    Ms. Bass. And then, Mr. Crane, I really admire what you 
have done in the past, and Mr. Smith has shared with me a few 
minutes ago about how you faced daily death threats during the 
time of Sierra Leone, and to come through that, you come 
through it with a certain amount of soberness.
    I didn't particularly like to hear what you said, but I 
appreciate the reality. When you said that, one, you 
characterized it as Cold War ramifications, and I think you 
meant by that that this is nothing that is going to be solved 
quickly.
    Mr. Crane. Yes, ma'am.
    Ms. Bass. But I appreciate you saying that because there is 
too much rhetoric out there about why don't we just do this and 
it fixes it, and I think you painted a far more realistic 
picture, and I appreciate that, even though it was difficult to 
hear.
    So I wanted to know if you would elaborate a little more 
about some of the solutions that you talked about. You talked 
about a Marshall Plan. I was wondering what your vision would 
be as to who would come together to do that.
    You talked about holding ISIS accountable, and you 
mentioned a hybrid court, and I wanted to understand what 
exactly that meant, how that would be.
    What you went through in Sierra Leone, trying to imagine 
holding ISIS accountable like that when the leadership is so 
diffuse. How would you hold ISIS accountable? What are some of 
your thoughts about that?
    Why don't we start there?
    Mr. Crane. Thank you, Ms. Bass.
    I appreciate your comments, and I think your questions are 
very, very important. What I really wanted to underscore in my 
comments this afternoon is that this truly is a decades-long 
effort. In this age, where we try to solve problems within 24 
hours, it just can't be done.
    After World War II and facing the Cold War and the 
challenge of the Soviet Union, the world got together and 
created the political will to face down the Iron Curtain and 
what was behind it. We created NATO. We moved into Korea. We 
are still in Korea.
    Ms. Bass. Uh-huh, right.
    Mr. Crane. 1950. NATO is a successful example of a 
commitment by the world to stop tyranny. So there is historical 
precedent if there is the political will to come in and begin a 
process, begin a process where we have the international 
community, administered probably by the region where we have 
the International Monetary Fund, the World Bank, others where 
we have funds where instead of spending billions dollars a week 
bombing what we perceive to be a threat and creating job 
programs.
    I mean, what a wonderful thing it is to see almost like a 
Civilian Conservation Corps out there creating roads and 
building and reconstructing the damage that has been done. 
Again, I know it is not that simple, but at least if we change 
and shift our emphasis on construction as opposed to 
destruction, I think that we have a better chance in 
succeeding. So that was what I meant by the Marshall Plan.
    Ms. Bass. Let me interrupt you for just a minute about 
that. Okay.
    Mr. Crane. Yes, ma'am.
    Ms. Bass. One, I would love to see that actually here with 
our infrastructure, our failing infrastructure, and need for 
jobs. But this is what confuses me, and that is, who would the 
actors be?
    Because post-World War II--I mean, and most of what you 
described in terms of International Monetary Fund, World Bank, 
et cetera, are European based, you know what I mean, and how--
what parts of the region come together considering, you know, 
whether they are actively involved or not, how would you have 
the European-based powers then go in and say here is a Marshall 
Plan for what is predominantly the Arab world?
    Mr. Crane. Well, again, an excellent question and probably 
an unanswerable question as far as political will. We just have 
to step back and stop using kinetic energy to solve the 
problems in the Middle East. It is not working, and yet we take 
all of those billions and, in some cases, now probably 
trillions----
    Ms. Bass. Trillions, right.
    Mr. Crane [continuing]. Of dollars, and we could have 
shifted that in a way that would have revitalized an area. Not 
making it a religious base, not making it Sunni versus Shia or 
Christian versus Muslim, an ability for the region, backed by 
Arab states as well, with some leadership by the European 
Union, what have you, to do this.
    It is not going to be easy.
    Ms. Bass. Uh-huh.
    Mr. Crane. But I am just trying to get a conversation going 
and asking the question, can we do better than just kinetic 
energy, bombing our way out of a solution?
    Ms. Bass. I appreciate that.
    Mr. Crane. So, again, forgive me for not being able to give 
you specific answers because----
    Ms. Bass. That is okay.
    Mr. Crane [continuing]. I don't, but I think that changing 
our perspective will certainly be important.
    Now, you also bring up a--the hybrid court idea. At the end 
of the day, this is all about the victims, right. We are very 
arrogant about how we approach international justice. We don't 
have all the solutions. There are certainly other justice 
methodologies. I always used to ask the question, is the 
justice we seek the justice they want? I think that is really 
an important question because we tend to think that the 
European model of international justice or the common law model 
is the model, but some of these justice mechanisms in other 
parts of the world have been around for thousands of years and 
have worked.
    So we have to be very, very humble to realize what do the 
victims in Syria and in the Levant and in northern Iraq, what 
is justice to them? And once we begin to consider that, there 
are many, many possibilities, and it may not be an 
international system. So a hybrid court or a domestic court or 
internationalized domestic court may be something that may be 
important. Even going back and looking at tribal and cultural 
type of methods of justice may be a start or a beginning.
    How would you hold members of ISIS accountable? Well, of 
course, that is a challenge. I think that once we were able to 
do that--that is part and parcel to this overall A plus B plus 
C plus D step forward, is begin to try to contain ISIS. A good 
example is ISIS is like a cancer that is not going to cause a 
fatal result, but it is there, and so your doctor is going to 
have to say: We are going to have to manage this.
    Ms. Bass. Uh-huh.
    Mr. Crane. And so we should manage ISIS like such, try to 
cut out areas that they try to grow in other parts of the 
world, Libya, for example, and other parts. Deal with those 
smaller problems, but try to contain ISIS, and then begin to 
develop many things, to include a justice mechanism where it 
can be seen that the international community, the region itself 
is actually doing something.
    It doesn't have to be elaborate. It can be just a simple 
step of creating a truth commission where we have the trust 
being garnered. Again, if you build it, they will come. I have 
been told, well, you can't have a truth commission for these 
various reasons, what have you. Well, we have got to do 
something. We have got to be seen at doing something in the 
transitional justice area other than talking about various ways 
that we can go about that.
    That is just a simple example. But this is all part and 
parcel to a larger achievable results: Contain ISIS and begin 
to pick out areas where we can succeed so we can bring back 
that hope, which robs ISIS of its ability to recruit, and that 
cancer begins to shrink.
    Now, again, there are many, many levels of problems here 
that could throw this off the rails. But we just have to look 
at this a little bit more simply and a little bit more 
objectively and step back and go what really is working and 
what really isn't working, and I will guarantee you, it is not 
using kinetic energy.
    Ms. Bass. Thank you. Thank you very much.
    Mr. Crane. Yes, ma'am.
    Ms. Bass. I yield back.
    Mr. Hamasaeed. Just quickly on the question of justice, 
this is something that the U.S. Institute of Peace is dealing 
within areas that have been liberated, because we have the 
experience that we are looking at, like, what does that look 
like? And that--this is closer to Salahuddin and not directly 
minority areas. But the issue of justice where you have tribes, 
they have their local mechanisms that usually they go for 
revenge and there is exacting blood money, and these have 
complicated the situation.
    In the case of Tikrit, after what is known as Camp Speicher 
where ISIL killed 1,700 soldiers and cadets, we managed to tap 
into those local traditions through facilitated dialogue--using 
facilitators USIP trained over the years--there is a level of 
venting that needs to take place among those actors. That 
happened. And then they engaged on the substance. They realized 
that going into this cycle of violence will change the nature 
of the problem, and it will make things more complex.
    So there are ways that you can deal with this and tap into 
those local solutions and prevent violence. There was a 
question of justice. So, for those who have been killed, for 
those who have been displaced, what does justice look like? And 
there is no universal answer. It really varies depending on 
what the different communities accept. In Tikrit, they decided 
they will work with the judicial system of the government. The 
tribe said: We will work with the system, and we will bring 
perpetrators to justice, and we will work with you.
    In a town few miles away, in Yathrib, Salahuddin, the local 
population, to date, are not allowing people to return because 
they do not necessarily accept that other local solution. And 
the government doesn't have the capacity to deal with the 
justice of ISIS because, as you alluded to, these are 
fragmented members. It is not an entity that you can go to one 
place and capture them.
    And unless the local population cooperates with this 
process to help you identify who did this and what, then it 
will be very difficult to bring perpetrators to justice. And I 
have to warn about after 2003, de-Ba'athification was getting 
rid of the members of Ba'ath party was a big problem, 
contributed in the way it was dealt with to giving the--add to 
the problem of today. Actually, the day after of this problem, 
liberated areas, I think this is our problem: Going after those 
labeled as collaborating with ISIS and then what will be the 
ramification for the political process? For the stabilization? 
For the next cycle of the problem?
    So putting energy and resources and building it bottom up, 
tapping into both what the system can do, but also really 
getting the community to work with this issue because they have 
seen it in the most painful way now. They have been displaced. 
They have seen their people killed. I think there could be an 
opening to tap into that and build upon that. But if we just 
leave it like this, I think it will fester, and this will 
become the underestimated problem that we face.
    Many people underestimated that the vacuum in Iraq could 
give us ISIS in its current form. And then there was 
underestimation of the damage that ISIS could do and the 
response needed. I think the post-ISIS situation also is 
probably underestimated right now and could use more attention. 
Thank you.
    Ms. Kikoler. Thank you very much.
    One of the purposes of our recent trip was also to look at 
issues relating to accountability and justice, hence our 
recommendation around the need to prioritize transitional 
justice. And just very briefly, I think there are five points 
that I would make.
    The first is there is a need for there to be an independent 
international investigation into what happened to ensure that 
there can be the collection of evidence and the preservation of 
evidence and their analysis in accordance with international 
standards, to help establish truth, to help families identify 
what happened to their loved ones, and to push for future 
prosecutions and accountability.
    The second is that there needs to be an investment in 
supporting the capacity building and rule of law efforts of the 
Government of Iraq and the Kurdish Regional Government. That is 
needed immediately, but it will have long-term benefits to 
ensure that the rule of law actually means something and that 
minority communities feel that should their rights be violated 
in the future, they can resort to courts and not have to take 
up other means to protect themselves.
    The third is both the Government of Iraq and the Kurdish 
Regional Government currently lack legislation that allows them 
to prosecute genocide. There is an effort under way to create 
such legislation. The political will to do so is mixed. There 
is an important role that the international community can play 
in pushing for the enactment of that legislation so that we 
could possibly see cases brought at the national level.
    The fourth, as I mentioned earlier, is the importance and 
priority that should be placed on local cases, trying people 
for murder, for these kind of property seizures, for what 
happened in their own communities, and there is an important 
issue that arises on that. It requires the detaining of people 
and the investigation for future prosecutions.
    Now, many Islamic State fighters tend to blow themselves up 
or killed on the battlefield. It is unclear for those who are 
being detained by different forces what is happening to them. 
We need to do a better job of trying to arrest people, ensure 
that there can be future prosecutions with them. That is going 
to be very pertinent when we see a liberation of Mosul. And it 
is going to raise a lot of challenging human rights questions 
about the vetting of people as they flee Mosul in ensuring that 
not all Sunni Arabs are stopped and detained and assumed that 
they are Islamic State supporters but that those few that have 
actually committed crimes are actually held responsible.
    And then, finally, to underscore the point that Sarhang 
made about the critical need to support local civil society 
that is undertaking these efforts to do documentation but also 
to do the conflict management and mediation and reconciliation 
work that will be so critical to ensuring that we don't see a 
further recurrence of atrocities.
    Mr. Smith. Thank you, Ms. Bass.
    And thank you.
    Just some final questions.
    Mr. Anderson, you pointed out in your testimony that 
American policy should recognize the important differences in 
the situation of those fleeing violence and those targeted for 
genocide, and we should prioritize the latter, and I would add 
with emphasis, especially since the administration has made the 
designation of genocide against Christians and other minority 
faiths.
    Consider this analogy, you point out, after World War II, 
there were approximately 50 million refugees. Only a small 
fraction were Jews, yet the world understood that Jews who have 
survived genocide faced a qualitatively different situation and 
deserved heightened consideration.
    I believe strongly--and if you want to elaborate on that--
that you could put exclamation points on that for the 
Christians, the Yazidis. Today, when they can't even get into 
an UNHCR or IDP camp or a refugee camp, are unwanted, at risk, 
and as you pointed out, a news report showed or indicated that 
of the 499 Syrian refugees admitted to the United States in 
May, not one, I repeat and say again, not one was listed as 
being Christian or as explicitly coming from any of the groups 
targeted for genocide.
    To me, that has got to change. I mean, that is 
unconscionable. It is not like we haven't been raising this 
for, in my case, 3 years. In the cases of so many others, 3 
years, and we have had hearing after hearing. You talk about 
protecting, and Ms. Kikoler, your point about civilian 
protection as being a core, I think, is very well placed. It 
has not been, and maybe you might want to elaborate on, do you 
sense that it is becoming a core protection, especially in 
light of the genocide statement?
    And let me also ask about the idea of stabilization, and 
again, there is so much overlap, great minds think alike, and 
you five have provided expert testimony, and there are a number 
of areas where there is an overlap of concern and 
recommendation. I chair the Commission on Security and 
Cooperation in Europe and have been very involved for years on 
Bosnia, was actually in Vukovar right before it fell, before 
Serbia conquered it 3 or 4 weeks before it fell, and worked 
very hard with the Yugoslav court to hold people who committed 
those atrocities to account.
    Well, the whole idea of stabilization, one of our members 
of the full committee, Scott Perry, was part of the 
stabilization force and can tell you, as was mentioned earlier 
by Professor Crane, we are still in Korea. The stabilization 
force, it took years, and I remember being in burnt-out homes 
throughout Bosnia. I was actually in Srebrenica, where the 
genocide against Muslims occurred, which was horrific. I was 
there for one of the re-interment ceremonies.
    My point being, we do have to plan for that post-conflict 
when there is a liberated area? I am concerned we are not doing 
the kind of aggressive planning that is necessary. Because we 
had forces on the ground in Tuzla and elsewhere, we did a lot 
of that. It still wasn't perfect.
    But get this, as of yesterday, and I had a hearing on 
Bosnia, there are still approximately 800 people who committed 
horrific crimes in Bosnia, mostly against Muslims, who the 
criminal court for the former Yugoslavia devolved to the local 
courts, and they--not one--not one--have been taken up.
    So the importance of the courts can't be overstated as a 
means of meting out justice and giving the survivors at least 
some peace that their next door neighbor or the guy that is one 
block away wasn't someone who was putting bullets in the heads 
of family members or committing acts of torture.
    I do meet frequently with these folks in Bosnia, and if we 
don't have lessons learned from all of that, shame on us. So 
all the more reason why a court needs to be set up.
    And I really, really appreciate again, Professor, your 
point about the cornerstone of a possible beginning of the 
solution is to get Arab resolve in cooperation. The idea of 
having Arab states prosecuting Arabs for crimes against Arab 
peoples in violation of Arab laws, the idea that at least you 
have ownership, and I think that is a very, very important 
point for all. We want to lend and assist.
    And, again, on capacity, as was mentioned by some of our 
witnesses, you, in Sierra Leone, left not only well-trained 
prosecutors and people who understood rule of law and how to 
garner evidence and present it in court, you left buildings 
where people could work and do the important work of justice. 
And I think all the more reason why we need to push that.
    But if you could speak to these questions that I am 
raising--all of you or some of you, however you would like--I 
would appreciate it.
    Maybe start with you, Mr. Anderson, on this. We have got 
the designation. Why aren't Christians being focused upon? 
There is no religious test here. I think the President erred 
when he said we don't have religious tests. When Jackson-Vanik 
passed and the Soviet Union and Jews were escaping the horrific 
psychiatric prisons of the Soviet Union, and I actually went to 
Perm Camp 35, where a number of political and religious 
prisoners were--and it was terrible--but we saved hundreds of 
thousands of Jews through limiting MFN to the Soviet Union 
based on focusing on Jewish people who were being so persecuted 
by the Soviet Union.
    We are talking about minority faiths here. We need to 
redouble our efforts, as you pointed out on the Tom Cotton 
bill, and thank you for that. Well, maybe you want to 
elaborate, if you would.
    Mr. Anderson. Thank you for the question, Mr. Chairman, and 
especially for your leadership for so many years on this.
    It goes without saying: Every human life has dignity, has 
sanctity. We should do whatever we can to support each 
individual who is in these tragic situations, and of course, 
the help that we are doing, as I mentioned, helping Yazidis, 
helping Muslims, there is not a distinction of helping the 
individuals. But I think we have to realize a basic reality 
here, that there are minority, indigenous communities that have 
been in these lands for thousands of years, and they are going 
to be extinguished. And that is a different qualitative 
reality. And so what the world has to ask itself is, are we 
going to allow that to happen? Are we going to allow it to 
happen?
    And, therefore, if the decision is, no, we are not going to 
allow this, then we have to make special efforts. We have to 
give special attention to preserve these communities. It is 
just as simple as that. Nobody wants to apply religious tests, 
but the fact is these people, these communities, this heritage 
will be gone unless we do something extra to save it.
    Mr. Smith. Answer to any of those questions?
    Mr. Oram. Thank you very much, Mr. Chairman. Again, I 
commend you for your leadership in spending so many years in 
this respective body fighting for religious freedoms throughout 
the world.
    Mr. Anderson is correct. The Assyrian and the Chaldean 
communities of Iraq and Syria do face extinction, but another 
problem that I would like to kind of touch on is the central 
government in Baghdad. After the war, the Coalition Provisional 
Authority dialogued with the Iraqis in basically implementing 
Article 125, the redrafting of the Iraqi Constitution with 
Article 125 which basically talked about the protection of 
Iraq's Christian minorities. Article 125 is a moot point right 
now. The Iraqi Government has failed in upholding its 
constitutional duties. When the Islamic State came barreling 
through many towns and villages of the Nineveh plains, the 
Iraqi Army, 50,000-60,000 and some odd to about 10,000 or 9,000 
thugs, basically, surrendered and basically relinquished their 
weapons, arms, clothing, and uniforms and fled. That is 
basically negligence on the Iraqi Government's part. We can 
basically sit here and point fingers about they did this and 
play the blame game, but let's move forward. I urge that this 
Congress basically urge the Iraqi Government to step up to the 
plate and help these communities, everything from financial 
assistance to each individual that has been impacted because, 
again, the Iraqi Government has a moral and fundamental 
responsibility to protect its citizens, and they failed. Thank 
you.
    Mr. Smith. Thank you. If I could, and Professor Crane, if 
you could, in addition to those questions, in your statement, 
you talk about the Syracuse Syrian Accountability Project, 
which you have founded: Over the past 5-plus years, we have 
built a trial package that a domestic, regional, or 
international prosecutor can consider in developing a case 
against all parties committing atrocity in the Levant. This 
package includes a conflict map, a crime base matrix, and other 
associated documents to include sample indictments. And you 
pointed out how you used that very same technique in 
successfully prosecuting Charles Taylor and other henchmen.
    Can you elaborate on that because that is absolutely vital, 
I think, to the future of successful prosecution? It is not 
like it all has to be reinvented. Don't reinvent the wheel. You 
have ready-made tools here.
    Mr. Crane. I think it is very important that we do 
understand that we have made great strides in the past 20 years 
in international criminal law. Most of this was theory when I 
was in law school or not even taught because it didn't even 
exist. What we do now, we have this capacity, the rules of 
evidence, the practical experience, and the jurisprudence to 
prosecute and hold accountable any individual who commits 
atrocities, international crimes. Again, the bright red thread 
of all of this is politics, and that is always, always a 
challenge related to dealing with these types of issues. But at 
the end of the day, because we have this practical experience 
now of taking down and holding accountable a head of state, his 
henchmen, for what they have done to a region, we need to 
continue to work together to use those techniques so that 
someday, whether it be tomorrow, next year, or 10 years, we 
will have that ability then to hold accountable those who have 
destroyed this area of the world.
    So we do have a conflict map. We have literally developed a 
criminal history of the Syrian conflict and in the Levant since 
March 2011. We continue to monitor that and write that chapter. 
We also have that crime base matrix, which lists by date, time, 
location, perpetrator, as well as the specific violation of the 
Rome Statute, international humanitarian laws, such as the 
Geneva Conventions, and we have translated the Syrian criminal 
code, which is a good criminal code, one that could be used for 
the basis for domestic prosecutions, into English. And so we 
have also identified by paragraph and line the violations of 
Syrian law as well. That particular aspect of the Syrian 
Accountability Project now numbers over 7,000 pages. In fact, 
there is so much of it that we have put it into a memory stick 
because I can't transport that around. In fact, the chairman 
knows; I gave him a copy of that last week. Now we share this. 
This is not all about the Syrian Accountability Project at 
Syracuse University College of Law. This is about justice for 
the people of Syria. So we share all of this data, and have 
since March 2011, with our colleagues in the United Nations, 
various key countries, such as the United States, our friends 
in the war crimes office there, along with the international 
criminal accord. I personally give this data to the chief 
prosecutor, Fatou Bensouda, as well. So we are sharing. We are 
working with other important accountability organizations to 
work together to make sure that, again, at the end of the day, 
it is about the victims and justice for the victims.
    But one caution here. You know, 10, 12 years ago, when I 
was investigating west Africa, we went out and did it the old 
way, cops going out, gathering evidence, taking statements and 
what have you. Now, with this social media age, we are 
inundated by a tsunami of information. It is too much. The 
challenge now is not finding the evidence. The challenge is now 
finding the evidence in a haystack. Ninety-nine-point-nine 
percent of the data coming out of Syria in whatever capacity 
being held by whatever organization is not evidence. We cannot 
use it in a court of law. I think that is really important for 
us to understand. It is a great historical body of information. 
It is important in many other ways, but it can't be used in 
court. I think we tend to forget that, that we have all this 
information, but it is just information. It is not evidence. 
And so I think we have to be very, very careful when we say we 
have cases against all these individuals. The answer is we may 
have cases against these individuals, and we have to be very, 
very careful. But, again, that is up to a prosecutor, a local, 
regional, or international prosecutor, to take this and 
hopefully take our trial package and use it in whatever way he 
or she can use it in order to seek justice for the people of 
the Levant region.
    Mr. Smith. Before we conclude, anything else that any 
witness would like to--yes, Ms. Kikoler.
    Ms. Kikoler. Just in light of the question that you asked 
about the integration of civilian protection, I think it is 
really important to underscore that defeating ISIS but failing 
to prevent atrocities and provide adequate security to all 
Iraqis will likely fuel future grievances, a proliferation of 
armed groups, and continued conflict. In our original report, 
we highlighted that the current counterterrorism and 
counterinsurgency paradigms don't prioritize an assessment of 
or compel a response to, in a systematic way, the unique 
threats and risks of mass atrocities that local populations and 
individuals may face, so, as a result, going forward, we do 
feel that it is important to prioritize the mapping of the 
motivations, organizations, and capabilities of perpetrators 
and the vulnerabilities of at-risk communities.
    Finding proactive ways to identify where these communities 
are, our report focused on Iraq--there are communities in Syria 
that remain at risk: Mapping their location, tracking the 
movement and mobilization of potential perpetrators, and 
identifying other actors that enable or inhibit the 
perpetration of mass atrocity crimes. This includes 
intelligence gathering and analysis that plays a critical role 
in developing the strategies that will be used to provide 
protection for communities and prevent future atrocities going 
forward.
    Mr. Smith. Could I ask you, on that parallel, if you would, 
would a safe haven, is that more of a surface appeal but strewn 
with a number of challenges that may make it unachievable, or 
is it something that ought to be, in your opinion, promoted?
    Ms. Kikoler. I think, from our perspective, there are a 
host of questions that need to be asked about how to provide 
protection, and we don't necessarily go into military 
strategies at the Museum ourselves. I think the questions that 
can be asked about areas like safe havens and other options 
are, what are the specific threats facing civilian populations? 
What are the resources that are needed to provide protection? 
What are the various options that are available to ensure that, 
over a sustained period of time, communities will be protected 
and a host of other scenarios?
    In the case of northern Iraq, one of the things that we 
have highlighted is the need to focus on addressing the deep 
distrust that communities feel toward others and recognizing 
that the areas that we are talking about are not ethnically or 
religiously homogenous. Communities live alongside each other, 
and any discussion about local administration, physical 
protection, has to take into account those realities in that 
particular area, but I think others would probably be more 
well-versed.
    Mr. Smith. Yes.
    Mr. Hamasaeed. Yes. So I think that it is important to look 
at the different scenarios that we talked about, the protracted 
stay but also the scenario of return. The whole system is 
struggling with providing food and assistance, so that is a 
level of need we are talking about, and the scenario of return, 
there is a physical protection of those people, and then ideas, 
such as safe havens and all of that, there are practicality 
elements that need to be taken into consideration.
    Okay. What objective will that serve? So, in the past, a 
safe haven, again, is a system like Saddam Hussein could have--
a systemic protection would have been helpful, but right now, 
the threat is far more retail in the sense of you have a terror 
organization that knows no boundaries. And then you have the 
fear of revenge that is actually at the individual and tribal 
and family level sometimes. So a safe haven or the concept of 
protection and physical protection, that changes how you 
deliver that. This is where the better relationship with the 
neighboring communities and working on that becomes necessary. 
And I think one of the things that could be helpful for the 
Iraqi minorities--as important as they make this case, as they 
present solutions--some of the solutions will create other 
problems, will create other conflicts and other competition. It 
is important that at this moment of frustration and this moment 
of anger--and it is a lot, and they have every right to be 
angry and frustrated and disappointed. But getting back to what 
Mr. Crane said about achievable programs and achievable 
objectives, it is important to look at a framework solution for 
Iraq. Without fixing that, the minorities will always be caught 
in between those.
    I would like to stress that the military approach is 
probably important for certain problems, but it will not solve 
the long term. And preserving those communities, you may be 
physically safe if you relocate to the Kurdistan region or you 
relocate to outside, but preserving the community, as a 
community--and for Sabean-Mandeans, their numbers have dropped 
over the years to about a couple of thousand worldwide. This is 
how you lose a community. The Christians have seen their 
numbers drop from about 1.5 million in 2003 now to about less 
than a third of that in Iraq. Preserving the sense of community 
will require for the minorities to be striking those 
relationships with those Iraqi communities for the long term. 
But also the civil society and the external assistance could go 
also into preserving those communities in terms of education, 
in terms of programs that will provide services to those areas. 
And this is what the Alliance of Iraqi Minorities has done very 
successfully: Working with the Iraqi Government and with the 
Kurdistan Regional Government. Those efforts could help the 
minorities help themselves, be the voice of the community, and 
engage the international actors.
    Mr. Smith. Thank you.
    Mr. Oram.
    Mr. Oram. Thank you, Mr. Chairman, for touching on the safe 
haven question. You know, right now, a good number of our 
people do not want to return back to their villages and towns 
in the Nineveh plains because they have lost the confidence and 
the trust of not only their government, but remember, a lot of 
their Sunni neighbors in the villages essentially marked them 
for death. They basically went ahead and etched on the big 
``N'' for Nazarene, identifying them as Christian families, but 
the only way for an effective safe haven mechanism is obviously 
laying a foundation for the successful liberation of Mosul, 
which is basically the gateway of Iraq's Christian region, and 
also to ensure that the Assyrian communities of northern Iraq 
enjoy their own self-autonomous identity, their own affairs, as 
well as a security apparatus through the support of our 
Government. That is the only way that they can have their 
confidence and their hopes restored, by having a security 
mechanism in place, their own autonomy, dictating their own 
policies and what have you. This is extremely important for a 
long-term effort, for fulfilling a safe haven for our 
communities in northern Iraq.
    And that is why it is important now to address this and 
this is going to be a long process, and so I think, right now, 
we really need to identify the current situation at hand with 
respect to the IDPs, the violence and the harassment, the lack 
of aid that they are receiving, as well as reforming our 
immigration or Refugee Act of 1980, designating new visas, the 
P-2 and the P-3 visas, for many of these Christian families to 
come to the United States. And a lot of them have relatives and 
friends and families in the United States. They can come back 
here and join them. This is important, but I think it should be 
a part of our long-term foreign policy strategy to preserve 
Christianity in the Middle East. We are the oldest in 
civilization. We are the indigenous peoples, and it is vital to 
America's national security to make sure that this is reached.
    Thank you very much, Mr. Chairman.
    Mr. Smith. I want to thank each and every one of you for 
your time, your leadership, for taking the time to present 
very, very incisive testimonies to the committee, and we will 
share this with a large number of people, so thank you, and I 
look forward to working with you going forward.
    The hearing is adjourned.
    [Whereupon, at 2:17 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
   
                  

    Material submitted for the record by Ms. Naomi Kikoler, deputy 
 director, Simon-Skjodt Center for the Prevention of Genocide, United 
                    States Holocaust Memorial Museum
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              
                   

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
